                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                        CLOSEOUT MEMORANDUM

11    Case Number: A-02030023
                                                                                     11           Page 1 of I



            We received the following allegations from the complainant.' He alleged that 1) subject a PI
            on an NSF award3and subject 2: his graduate student, fabricated subject 2's entire Ph.D. thesis5
            at institution 1;6 2) certain individuals at institution 1 retaliated against the complainant when he
            brought the fabrication allegation to their attention; 3) graduate students at institution 1 did not
            do much work to get their degrees; 4) after graduate students at institution 1 graduated, they were
            hired into national positions requiring high security without appropriate background checks;
            5) an individual at institution 2' retaliated against the complainant when he arrived as a new
            graduate student because he had reported the fabrication allegation at institution 1;and
            6) institution 2, as well as many other institutions in U.S., were using federal funds to support
            training for right wing militia groups.

            Our review showed that, although subject 1 had received an NSF research award, there was no
            evidence that funds from this award were used in support of subject 2's thesis work. NSF has no
            jurisdiction over the allegation of fabrication. Further, because the complainant provided no
            documentation in support of any of his allegations, we could find no evidence of NSF
            jurisdiction for any of the other allegations. We concluded that, given no evidence of jurisdiction
            for any of the allegations, given the broad sweeping nature of several of his allegations, and
            given the complete lack of evidence, the allegations were unsubstantiated. This case is closed
            and no further action will be taken.




                                  is a




                                     (subject 2) was a
              Subject 2's Ph.D. thesis was completed in




111                   r   ~   g          e- n   t   I      Attorney            supervisor1                 AIGI


I       Sign 1 date
